                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

  Case Number: A12030019                                                         Page 1 of 1


          We learned of two concerns about a PI's proposal.l One was that in the proposal's
          Results of Prior Support section, the PI listed a paper (P1)2 that does not cite NSF
          support. Another was a programmatic concern addressed by the program manager.
          Regarding the first issue, we reviewed the proposal and found another paper (P2)3
          in the prior results section that did not acknowledge NSF support. We wrote to the
          PI and asked about his lack of acknowledgments in papers he claimed were
          supported by NSF. He responded that he thought P1 had general attribution to
          NSF and took responsibility for the omission in P2. We sent the PI a letter advising
          him to more closely follow NSF's guidance about acknowledgements. Accordingly,
          this case is closed with no further action taken.




               1   [redacted]
               2   [redacted]
               3   [redacted]



NSF OIG Form 2 (I 1/02)
